                                                   November 19, 2001



MEMORANDUM TO:                     William D. Travers
                                   Executive Director for Operations


                                   Jesse L. Funches
                                   Chief Financial Officer



FROM:                              Stephen D. Dingbaum/RA/
                                   Assistant Inspector General for Audits


SUBJECT:                           MEMORANDUM REPORT: AUDIT OF NRC’S USE OF CREDIT
                                   HOURS (OIG-02-A-03)


The Office of the Inspector General (OIG) has completed a review of the agency’s policies for
and use of credit hours. While the U.S. Nuclear Regulatory Commission’s (NRC) credit hour
guidance adheres to applicable laws and regulations, this guidance is informal, fragmented and
not effectively communicated. Additionally, the process for requesting and approving credit
hours is not fully controlled. As a result, some employees earned credit hours without proper
authorization.

BACKGROUND

Flexible work schedules (FWS) allow employees to determine work schedules within the limits
set by the agency and to earn credit hours. Credit hours represent hours within an FWS that
an employee elects to work in excess of his or her basic work requirement to vary the length of
the workday. The use of credit hours under an FWS began at NRC on March 3, 1996.
Approximately 11 percent of NRC employees earned and/or used credit hours during FY 2000,
comprising less than 1 percent of the agency’s approximately 6 million regular hours worked.

U.S.C. Title 5, Government Organization and Employees, Chapter 61, Hours of Work,
subchapter II - Flexible and Compressed Work Schedules (Title 5) sets forth guidance for
Federal agencies to follow in managing the use of credit hours. Additionally, the OPM1
Handbook on Alternative Work Schedules (OPM Handbook) was published to provide Federal
agencies with a framework to consult in establishing and administering such programs.
Attachment A highlights guidance contained in Title 5 and the OPM Handbook.



        1
            OPM - The U.S. Office of Personnel Management
                                                                     Audit of NRC’s Use of Credit Hours

PURPOSE

The objectives of the audit were to determine whether NRC’s (1) policies governing the
accountability and control over the use of credit hours comply with applicable laws and
regulations and (2) established practices provide adequate controls over the use of credit
hours.

RESULTS

NRC’s credit hour guidance complies with applicable laws and regulations. However, credit
hour guidance is informal, fragmented and ineffectively promulgated because of delayed
revisions to management directives (MDs). Because the agency has not consolidated and
effectively communicated credit hour guidance, some timekeepers and certifying officials are
not fully aware of credit hour guidance and do not fully follow procedures for reporting credit
hours. Additionally, the process for requesting and approving credit hours is not fully controlled.
As a result, some employees earned credit hours without proper authorization. This situation
places the agency at risk of errors that may violate laws, regulations or NRC guidance.

       Management Directives Do Not Address Credit Hours

       NRC’s credit hour guidance complies with applicable laws and regulations; however,
       NRC MD 10.42, Hours of Work and Premium Pay and MD 10.43, Time and Attendance
       Reporting contain no guidance on credit hours. Rather, internal credit hour guidance
       only exists informally as memoranda, network announcements and in the collective
       bargaining agreement. No single document contains a compendium of credit hour
       guidance. To gain a full understanding of NRC credit hour guidance, staff must refer to
       as many as seven documents.

       In a network bulletin dated February 26, 1996, the agency outlined its credit hour
       guidance. A series of communications followed which supplemented the February 26,
       1996 guidance. Those communications include the following:

       (1)     Memorandum to Certifying Officials and Timekeepers: Guidance on Credit
               Hours, dated 2/29/96

       (2)     NRC Network Announcement: Credit Hours - Corrected, dated 5/21/96

       (3)     Memorandum: Guidance on Credit Hours - Phase II, dated 5/24/96

       (4)     Collective Bargaining Agreement Between U.S. Nuclear Regulatory Commission
               and National Treasury Employees Union (collective bargaining agreement),
               dated 8/1/97

       (5)     NRC Network Announcement - Corrected Official Guidance on Credit Hours,
               dated 9/2/97



                                                2
                                                                             Audit of NRC’s Use of Credit Hours

        (6)      NRC Network Announcement - Compensation for Travel, dated 6/14/01.

        Together, these seven documents provide the internal guidance governing NRC’s credit
        hour program.

        Additionally, NRC has not effectively promulgated credit hour guidance to timekeepers
        and certifying officials responsible for preparing the biweekly time and attendance
        reports. Therefore, some timekeepers and certifying officials are not fully aware of
        NRC’s credit hour guidance. For instance, some timekeepers and certifying officials
        could not identify specific written procedures they follow in reporting credit hours or
        explained that they are not aware of any procedures for credit hours. Other timekeepers
        and certifying officials cited management directives or the collective bargaining
        agreement as the guidance they follow. However, the management directives do not
        include guidance on recording credit hours.

        Some timekeepers and certifying officials are not fully aware of NRC’s credit hour
        guidance because such guidance has not been consolidated in management directives.
        The agency delayed revisions to management directives until it completes a transition to
        a new time and attendance and payroll system.2 However, the new system became
        operational on November 4, 2001. Since the system recently became operational, now
        is an opportune time to revise and incorporate credit hour guidance into management
        directives. Unless timekeepers and certifying officials are fully aware of NRC’s credit
        hour guidance, NRC is at risk of errors that may violate laws, regulations and NRC
        guidance.

        The Request and Approval Process Is Not Fully Controlled

        To request and approve credit hours, NRC requires staff to complete NRC Form 707,
        Hours of Work Request (Form 707) authorizing an FWS. Additionally, they must
        complete NRC Form 710, Credit Hour Plan and Certification (Form 710) for each pay
        period where credit hours will be earned or used. However, these forms are not
        consistently completed.

        Several timekeepers did not require or maintain Form 707 for employees earning and/or
        using credit hours. In fact, at least one timekeeper believed that Form 707 is not
        required to authorize an employee to earn credit hours. Because this form was not
        consistently prepared, some employees earned and/or used credit hours without
        required authorization. While NRC’s Payroll Office conducts annual reviews of the time
        and attendance reporting process, these reviews do not verify that Form 707 is
        completed.

        Additionally, inconsistency across units exists in preparing Form 710. For example, one
        timekeeper does not require Form 710; instead the employee earning credit hours writes
        credit hours earned and/or used on a time and attendance log maintained in the office.


        2
         A PeopleSoft time and attendance module is one component of the agency’s planned financial and
resource management system, Starfire.

                                                      3
                                                                   Audit of NRC’s Use of Credit Hours

       Other timekeepers require that Form 710 be completed at the beginning of the pay
       period. If the employee strays from the plan, they require the employee to note the
       variations from the plan and to resubmit the form at the end of the pay period.

       Because requesting and approval procedures are inconsistent and timekeepers and
       certifying officials are not fully aware of credit hour guidance, some employees earned
       and/or used credit hours without proper authorization. This situation places the agency
       at risk of errors and of abuse of the credit hour program and places employees at risk of
       forfeiting accumulated credit hour balances without pay.

RECOMMENDATIONS

       OIG recommends that the Executive Director for Operations:

              1.     Revise applicable management directives to include guidance on credit
                     hours.

              2.     Issue and implement interim guidance immediately.

       Additionally, OIG recommends that the Chief Financial Officer in coordination with the
       Executive Director for Operations:

              3.     Include a specific review of all supporting documentation authorizing the
                     use of credit hours in the annual review of time and attendance reporting.

Please provide information on actions taken or planned on each recommendation directed to
your office by December 21, 2001. Actions taken or planned are subject to OIG follow up.
Instructions for responding to OIG report recommendations are attached.

SCOPE/CONTRIBUTORS

OIG evaluated the management controls related to NRC’s use of credit hours for FY 2000 and
conducted its work from June 2001 to August 2001, in accordance with Generally Accepted
Government Auditing Standards. This review was conducted by Debra Lipkey, Auditor and
Anthony Lipuma, Team Leader.

If you have any questions or concerns regarding this report, please contact Anthony Lipuma
415-5910 or me at 415-5915.

Attachments: As stated

cc:    John Craig, OEDO
       Margo Bridgers, OEDO
       Debra Corley, OEDO




                                               4
                                                                 Audit of NRC’s Use of Credit Hours
                                                                              ATTACHMENT A

Guidance from U.S. Code, Title 5 and OPM Handbook on Alternative Work Schedules includes,
but is not limited to:

      (1)    Employees may only earn credit hours within a flexible work schedule (FWS); no
             legal authority exists for credit hours under a compressed work schedule
             program.

      (2)    Credit hours are worked at the employees election and consistent with agency
             policies.

      (3)    Employees ceasing to follow an FWS must be paid for accumulated credit hours.
             Payment is limited to a maximum of 24 hours for a full-time employee.

      (4)    Employees are not entitled to compensation for credit hours unless an employee
             ceases to participate in an FWS.

      (5)    An employee participating in an FWS will not receive premium pay for nightwork
             solely because the employee elects to work credit hours, or elects a time of
             arrival or departure, at a time of day for which such premium pay is otherwise
             authorized.

      (6)    Credit hours must be considered daytime hours whenever possible.

      (7)    Full-time employees on a flexible schedule can accumulate not more than
             twenty-four credit hours for carryover from a biweekly pay period to a succeeding
             biweekly pay period.

      (8)    An agency may further limit the number of credit hours carried forward from one
             biweekly pay period to the next.

      (9)    Senior Executive Service members may not earn and accumulate credit hours.

      (10)   An agency may place a limit on the number of credit hours an employee may
             earn during a biweekly pay period and/or the number of credit hours an
             employee may earn on a daily or weekly basis.

      (11)   An agency may set a time frame within which employees may use credit hours.
                                                                            Audit of NRC’s Use of Credit Hours
                                                                                         ATTACHMENT B

                   Instructions for Responding to OIG Report Recommendations


Instructions for Action Offices

Action offices should provide a written response on each recommendation within 30 days of the date of
the transmittal memorandum or letter accompanying the report. The concurrence or clearance of
appropriate offices should be shown on the response. After the initial response, responses to
subsequent OIG correspondence should be sent on a schedule agreed to with OIG.

Please ensure the response includes:

1.      The report number and title, followed by each recommendation. List the recommendations by
        number, repeating its text verbatim.

2.       A management decision for each recommendation indicating agreement or disagreement with
        the recommended action.

        a.      For agreement, include corrective actions taken or planned, and actual or target dates
                for completion.

        b.      For disagreement, include reasons for disagreement, and any alternative proposals for
                corrective action.

        c.      If questioned or unsupported costs are identified, state the amount that is determined to
                be disallowed and the plan to collect the disallowed funds.

        d.      If funds put to better use are identified, then state the amount that can be put to better
                use (if these amounts differ from OIG’s, state the reasons).

OIG Evaluation of Responses

If OIG concurs with a response to a recommendation, it will (1) note that a management decision has
been made, (2) identify the recommendation as resolved, and (3) track the action office’s
implementation measures until final action is accomplished and the recommendation is closed.

If OIG does not concur with the action office’s proposed corrective action, or if the action office fails to
respond to a recommendation or rejects it, OIG will identify the recommendation as unresolved (no
management decision). OIG will attempt to resolve the disagreement at the action office level.
However, if OIG determines that an impasse has been reached, it will refer the matter for adjudication to
the Chairman.

Semiannual Report to Congress

In accordance with the Inspector General Act of 1978, as amended, OIG is required to report to
Congress semiannually on April 1 and October 1 of each year, a summary of each OIG report issued for
which no management decision was made during the previous 6-month period. Heads of agencies are
required to report to Congress on significant recommendations from previous OIG reports where final
action has not been taken for more than one year from the date of management decision, together with
an explanation of delays.
